               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00909-191


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 VA Black Hills Health Care System 

     Fort Meade, South Dakota 





July 2, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       CWT        Compensated Work Therapy
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                               CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of April 21, 2014, at the following
CBOCs which are under the oversight of the VA Black Hills Health Care System and
Veterans Integrated Service Network 23:

    McLaughlin CBOC, McLaughlin, SD

    Scottsbluff CBOC, Scottsbluff, NE

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                 However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    Signage is installed at the Scottsbluff CBOC to clearly identify the location of fire
      extinguishers.

	    Women veterans can access gender-specific restrooms without entering public
      areas at the Scottsbluff CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Registered Nurse Care Managers receive motivational interviewing and health
      coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Document the evaluation of patient’s level of understanding for the medication
      education.




VA OIG Office of Healthcare Inspections                                                        i
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–21, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                            CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                           CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the McLaughlin and
Scottsbluff CBOCs. The table below shows the areas reviewed for this topic. We considered
the CWT mission of the McLaughlin CBOC and reviewed applicable EOC requirements to the
extent possible. The areas marked as NM did not meet applicable requirements and needed
improvement.
Table 2. EOC

NM                      Areas Reviewed                                       Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
 NA    The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
 NA    Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
 X     The CBOC has signs identifying the locations      There were no signs identifying the location of
       of fire extinguishers.                            fire extinguishers at the Scottsbluff CBOC.
       Exit signs are visible from any direction.




VA OIG Office of Healthcare Inspections                                                                    3
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


NM              Areas Reviewed (continued)                                  Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens
       during transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              Gowned women veterans at the Scottsbluff
       veterans in the examination room.                  CBOC cannot access gender-specific restrooms
                                                          without entering public areas.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that signage is installed at the Scottsbluff CBOC to clearly identify the
location of fire extinguishers.


VA OIG Office of Healthcare Inspections                                                                  4
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


2. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Scottsbluff CBOC.




VA OIG Office of Healthcare Inspections                                                                 5
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 33 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 9 (27 percent) of 33 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       NIAAA guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for four of seven patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that one of three RN Care Managers
       received MI training within 12 months of           did not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that two of three RN Care Managers
       received VHA National Center for Health            did not receive health coaching training within 12
       Promotion and Disease Prevention-approved          months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.

4. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.


VA OIG Office of Healthcare Inspections                                                                    6
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


5. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                 7
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 25 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 6 of18 patient EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 12 of 18 patients.
       education provided.
       The facility complied with local policy.

Recommendations

6. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

7. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                  8
                                 CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the women’s health indicator in the
       Primary Care Management Module.




VA OIG Office of Healthcare Inspections                                                                 9
                                                                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                                                                      Appendix A


                                                                       CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                          Uniques4                                   Encounters4

                                    Station                   CBOC
         Location         State                Locality5                    MH7        PC8       Other9       All       MH7         PC8       Other9      All
                                       #                       Size6
    Rapid City            SD       568GA       Urban       Large           1,754       4,355      3,212      5,993 13,404          9,617      8,622 31,643
    Scottsbluff           NE       568HH       Rural       Small             169       1,358        422      1,452  1,065          4,182      1,035  6,282
    Pierre                SD       568GB       Rural       Small              96       1,386      1,350      1,428    447          2,768      3,614  6,829
                          SD       568HP       Highly      Small              25         531        135        542    140          1,855        705  2,700
    Winner                                     Rural
                          SD       568HM       Highly      Small               64        251           9       284      1,041        729           9     1,779
    Eagle Butte                                Rural
                          NE       568HB       Highly      Small               22        182           0       199          88       408           0       496
    Gordon                                     Rural
    Pine Ridge            SD       568HF       Rural       Small              112         80         25        168        826        199          33     1,058
    Mission               SD       568HJ       Rural       Small                0        148          2        148          0        312           2       314
                          WY       568HA       Highly      Small               17         83         19         92         45        147          30       222
    Newcastle                                  Rural
                          SD       568HK       Highly      Small               66            0         0         66       689             0        0       689
    McLaughlin                                 Rural

3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         10
                           CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
             CBOC                                             Ancillary Services12
                                     Services11                                                 Services13
    Rapid City                      Neurology                   Audiology                   Tele Primary Care
                                                              MOVE! Program14
                                                                Pharmacy
                                                                 Nutrition
    Scottsbluff                           ---                   Pharmacy                    Tele Primary Care
                                                              MOVE! Program
                                                                 Nutrition
    Pierre                                ---                   Laboratory                  Tele Primary Care
                                                                Pharmacy
    Winner                                ---                   Laboratory                           ---
    Eagle Butte                           ---                           ---                          ---
    Gordon                                ---                           ---                          ---
    Pine Ridge                            ---                           ---                          ---
    Mission                               ---                           ---                          ---
    Newcastle                             ---                           ---                          ---
    McLaughlin                            ---                           ---                          ---
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                                       CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                                                                     Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                               
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level. Blank cells indicate the absence of reported data. McLaughlin is listed as a CBOC on the VAST website; however, it provides
CWT services only.

VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                       CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data. McLaughlin is listed as a CBOC on the VAST website; however, it provides CWT services only.

VA OIG Office of Healthcare Inspections                                                                                                                    13
                                                                       CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. McLaughlin is listed as a CBOC on the VAST website; however, it provides
CWT services only.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                      CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data. McLaughlin is listed as a CBOC on the VAST website; however, it provides CWT services
only.
VA OIG Office of Healthcare Inspections                                                                                                                   15
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                      Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       June 9, 2014

          From: 	      Acting Network Director, VA Midwest Health Care Network
                       (10N23)

       Subject: 	      CBOC and PCC Reviews of the VA Black Hills Health
                       Care System, Fort Meade, SD

             To:       Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



                       I concur with VA Black Hills HCS comments in response
                       to the recommendations in the Draft OIG Report.



                       (original signed by:)
                       Steven C. Julius, M.D.




VA OIG Office of Healthcare Inspections                                                       16
                                    CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                                  Appendix D
                                          Facility Director Comments



                       Department of
                       Veterans Affairs                                      Memorandum


                 Date:             June 6, 2014

                From:              Director, VA Black Hills Health Care System (568/00)

           Subject:                CBOC and PCC Reviews of the VA Black Hills Health
                                   Care System, Fort Meade, SD

                    To:            Director, VA Midwest Health Care Network (10N23)



                                   Attached please find our facility response to the
                                   recommendations in the CBOC and Primary Care Clinic
                                   Review completed the week of April 21,2014.

                                 If you have any questions, you may contact the Director at
                                 VA Black Hills Health Care System at (605) 347-2511
                                 Extension 7170.



 
                                         (original signed by:)
 
                                 Stephen R. DiStasio
                                 FACHE Director




VA OIG Office of Healthcare Inspections                                                                   17
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that signage is installed at the Scottsbluff
CBOC to clearly identify the location of fire extinguishers.

Concur

Target date for completion: August 1, 2014

Facility response: Signage for Fire Extinguishers was ordered June 4, 2014 with
expected delivery date of June 10, 2014. They will be installed by the clinic when
received. Follow-up to verify installation will be completed by CBOC Coordinator prior
to August 1, 2014.

Recommendation 2. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Scottsbluff CBOC.

Concur

Target date for completion: June 4, 2014

Facility response: The Women’s Health exam room was relocated to the back of the
clinic to provide access to the restroom without walking into the check-in area or waiting
room. This was verified with the Clinic Manager June 4, 2014.

Recommendation 3.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: September 30, 2014

Facility response: The clinical reminder, “Evaluation of Positive Alcohol Screen,” will be
utilized within 14 days of an AUDIT-C score of 5 or greater. This tool includes the
statement ‘drinks below’ or ‘above recommended limits’. Primary care staff will be
provided a concurrent list of Veterans requiring completion of the reminder. Audit for
compliance will be completed by review of the Veterans seen in Primary Care/CBOC
clinics with an AUDIT-C Score greater than or equal to 5.




VA OIG Office of Healthcare Inspections                                                       18
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


Numerator/Denominator:     Number     of Veterans   with    complete     diagnostic
assessment/number of Veterans with AUDIT-C Score greater than or equal to 5. Target
performance rate: 90%. Auditing will be continued until compliance at 90% is
demonstrated for 3 consecutive months.

Recommendation 4.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: September 30, 2014

Facility response: The reminder “Evaluation of Positive Alcohol Screen” will be revised
to include an option to document offer of referral for further evaluation for those
Veterans with an AUDIT-C greater than or equal to 8. Documentation will reflect either
declination of referral or interest in the referral. Audit for compliance will be completed
by review of the Veterans seen in Primary Care/CBOC clinics with an AUDIT-C Score
greater than or equal to 8.

Numerator/Denominator: Number of Veterans offered further evaluation/number of
Veterans with AUDIT-C Score greater than or equal to 8. Target performance rate:
90%. Auditing will be continued until compliance at 90% is demonstrated for 3
consecutive months.

Recommendation 5. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: September 30, 2014

Facility response: Three dates for TEACH and MI have been established. To allow all
required staff to be scheduled within 12 months of their appointment to a PACT Team,
the VA Black Hills Health Care System will continue to schedule both courses 3 times a
fiscal year. Classes will be advertised for a 12 month rolling time frame to facilitate
clinical staff scheduling:

   1. Advertise in Intercom (weekly Employee Newsletter)

   2. Advertise via PACT Steering Committee

• To assure accurate staff monitoring for completion, Talent Management System
(TMS) will be the gold standard for tracking assignment and completion of these classes
and manual logs will be discontinued immediately. Activities to facilitate staff monitoring
include:



VA OIG Office of Healthcare Inspections                                                       19
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


   1. Services will identify staff to be trained in TMS monitoring reports by June 15,
      2014.

   2. 	 Access and training will be provided to those staff by TMS Coordinator by June
       30, 2014.

•  PCMM will be the data driver, identifying PACT team members, maintained by
PCMM Coordinator.

•   Contract CBOC PACT staff are highly recommended to take these classes, but not
required by existing contract. New contracts will include these and other required
educational components.

•  Effective FY14 Quarter 3, PACT Steering Committee will review TEACH and MI
compliance on a quarterly basis and address deficiencies with appropriate supervisor.

Recommendation 6.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 30, 2014

Facility response: The VA Black Hills Health Care System is revising medication order
set for oral fluoroquinolones to include 4 questions that are required to be answered by
the ordering provider. The questions are:

   1. Was this patient educated on fluoroquinolone therapy? (Yes/No)

   2. Did the patient demonstrate understanding of education provided (Yes/No)

   3. Was 	the medication reconciliation              completed      after   the   addition   of
      fluoroquinolones? (Yes/No)

   4. Was the patient’s written medication list updated with fluoroquinolone? (Yes/No)

The questions cover both the medication reconciliation and patient’s level of
understanding. Medication orders will not be released by Pharmacy until the questions
are responded to by the provider. Once the questions are satisfied, the medication will
be processed and provided to the patient.

Audits for compliance will begin post-implementation of education and initiation of the
new process and completed by pharmacy. 90% targeted compliance. Auditing will be
continued until compliance at 90% is demonstrated for 3 consecutive months.

Numerator= number of Veterans with documentation of medication reconciliation;
Denominator= number of Veterans prescribed Fluoroquinolone therapy



VA OIG Office of Healthcare Inspections                                                       20
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD


Recommendation 7. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: September 30, 2014

Facility response: The VA Black Hills Health Care System is revising medication order
set for oral fluoroquinolones to include 4 questions that are required to be answered by
the ordering provider. The questions are:

   1. Was this patient educated on fluoroquinolone therapy? (Yes/No)

   2. Did the patient demonstrate understanding of education provided (Yes/No)

   3. Was 	the medication reconciliation              completed      after   the   addition   of
      fluoroquinolones? (Yes/No)

   4. Was the patient’s written medication list updated with fluoroquinolone? (Yes/No)

The questions cover both the medication reconciliation and patient’s level of
understanding. Medication orders will not be released by Pharmacy until the questions
are responded to by the provider. Once the questions are satisfied, the medication will
be processed and provided to the patient.

Audits for compliance will begin post-implementation of education and initiation of the
new process and completed by pharmacy. 90% targeted compliance. Auditing will be
continued until compliance at 90% is demonstrated for 3 consecutive months.

Numerator= number of Veterans with documentation of Veteran’s understanding of
education;

Denominator= number of Veterans prescribed Fluoroquinolone therapy




VA OIG Office of Healthcare Inspections                                                       21
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Susan Tostenrude, MS, Team Leader
Contributors            Carol Lukasewicz, BSN, RN
                        Sami O’Neill, MA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       22
                        CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Director, VA Black Hills Health Care System (568/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Mike Enzi, Deb Fischer, Heidi Heitkamp, John Hoeven,
 Mike Johanns, Tim Johnson, John Thune
U.S. House of Representatives: Kevin Cramer, Cynthia Lummis, Kristi Noem, Adrian
 Smith


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       23
                            CBOC and PCC Reviews at VA Black Hills Health Care System, Fort Meade, SD
                                                                                          Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
